                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: A-061 10052
                                                                                     11           Page 1 of 1
                                                                                                                    11
          An ad hoc reviewer (complainant)' of the subject's NSF proposal2expressed a concern that the
          subject had just submitted a similar proposal to another fhding ~ r ~ a n i z a t i o n
                                                                                                The
                                                                                                  . ~ complainant
          was concerned that the proposal to the other organization was still pending at the time the NSF
          proposal was submitted by the subject, but he failed to list the other organization proposal on the
          NSF Current and Pending Support (CPS).

          We reviewed the subject's CPS forms for the past 5 years to see if he showed any pattern of
          providing incorrect information, but found no apparent omissions or inconsistencies. We learned
          that the subject had submitted a proposal to the other organization4and that it was, in fact,
          pending at the time the NSF proposal was submitted.'

           We wrote the subject. He explained that the business manager at his institution was responsible
           for producing the CPS forms for NSF proposals, but he, as the PI, was responsible for checking
           them before submission for accuracy. He said the omission was his fault. He also explained that
           the proposal to the other organization had not been loaded into the database, at the institution, at
           the time the CPS form was prepared for the NSF proposal. We found the subject's explanation
           reasonable. In closing this matter, we wrote to the subject and reminded him to be more careful
           in the future with information he provided in his NSF proposals.

           This case is closed and no further action will be taken.




 NSF OIG Form 2 (1 1/02)
